<html>
<title> - EPA OVERREACH AND THE IMPACT ON NEW HAMPSHIRE COMMUNITIES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
       EPA OVERREACH AND THE IMPACT ON NEW HAMPSHIRE COMMUNITIES

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 4, 2012

                               __________

                           Serial No. 112-157

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform


                  U.S. GOVERNMENT PRINTING OFFICE
75-303                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8aedfae5cae9fff9fee2efe6faa4e9e5e7a4">[email&#160;protected]</a>  


              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 4, 2012.....................................     1

                               WITNESSES

The Honorable T.J. Jean, Mayor, City of Rochester, New Hampshire
    Written Statement............................................     5
    Oral Statement...............................................     8
Mr. Dean Peschel,Peschel Consulting LLC, on Behalf of The Great 
  Bay Municipal Coalition
    Written Statement............................................    11
    Oral Statement...............................................    13
Mr. John Hall, Hall & Associates, on Behalf of the Great Bay 
  Municipal Coalition
    Written Statement............................................    18
    Oral Statement...............................................    20
Mr. Peter Rice, Public Works Director, City of Portsmouth, New 
  Hampshire
    Written Statement............................................    24
    Oral Statement...............................................    27
Mr. H. Curtis ``Curt'' Spalding, Region 1 Director, U.S. 
  Environmental Protection Agency
    Written Statement............................................    46
    Oral Statement...............................................    49

                                APPENDIX

Letters, statements, etc., submitted for the record by:
Carl Spang.......................................................    65
Stephen Silva....................................................    66
Judith Spang, Phil Ginsburg, 2 other State Representatives, and 
  27 attendees...................................................    67


       EPA OVERREACH AND THE IMPACT ON NEW HAMPSHIRE COMMUNITIES

                              ----------                              


                          Monday, June 4, 2012

                   House of Representatives
               Committee on Oversight and Government Reform
                                                   Washington, D.C.
    The committee met, pursuant to call, at 9:01 a.m., at 
Exeter Town Office Building, Nowak Room, 10 Front Street, 
Exeter, New Hampshire, Hon. Darrell E. Issa [chairman of the 
committee] presiding.
    Present: Representatives Issa and Guinta.
    Staff Present: Molly Boyl, Majority Parliamentarian; 
Lawrence Brady, Majority Staff Director; Linda Good, Majority 
Chief Clerk; Kristina Moore, Majority Senior Counsel; Christine 
Martin, Majority Counsel; Brian Quinn, Minority Counsel; 
Rebecca Watkins, Majority Press Secretary.
    Chairman Issa. This committee will come to order.
    Before I begin, this is a Congressional hearing no 
different than any hearing in Washington. We abide by the same 
rules. Obviously, it is a little more folksy by design, and we 
will try to be accommodating in any way we can. If there are 
questions or other items that people would like to have placed 
in the record, if you will hand them over to committee staff, 
we will try to accommodate written information and let it into 
the record.
    Additionally, I am going to notify that the record will 
remain open for five days, which means that if you get any 
additional information to Mr. Guinta's office within five days, 
he will have it included in the record. Now, that doesn't make 
it testimony, but it does make it material that will be a part 
of the entire record of consideration for this and future 
hearings.
    The Oversight Committee's mission statement is that we 
exist for two fundamental principles. First, Americans have a 
right to know that the money Washington takes from them is well 
spent; and, second, Americans deserve an efficient, effective 
government that works for them.
    Our duty on the Oversight and Government Reform Committee 
is to protect these rights. Our solemn responsibility is to 
hold government accountable to taxpayers, because taxpayers 
have a right to know what they get from their government. It is 
our job to work tirelessly in partnership with citizen 
watchdogs to deliver the facts to the American people and bring 
genuine reform to the Federal bureaucracy.
    As we begin the discussion today, I think it is safe to say 
everyone here on the dais, and I am sure everyone in the 
audience, appreciates the goal for the Great Bay Estuary is, in 
fact, to make it cleaner than it is today and to make it clean 
enough for habitat, including plant life, to flourish.
    Having said that, there will be multiple views--having 
reviewed the written statements, multiple views on how to 
achieve and to what level. And ultimately, this area, like so 
many areas of America, is dealing with a cost-benefit 
consideration: how much improvement for how many dollars and 
where those dollars could otherwise be spent, whether remaining 
in the pockets of the ratepayers or in fact providing as much 
as $100 million for other clean air and clean water projects in 
the region.
    Under the Clean Water Act and the National Pollutant 
Discharge Elimination System, permits for pollutants ultimately 
have to be granted. This gives the EPA a considerable amount of 
authority. Early in my career and even a few years beforehand, 
the Federal Government provided substantial dollars for non-
source pollution. Those dollars have not just evaporated, but 
ultimately the demands are virtually everywhere in America. 
What you see in the Great Bay communities, ultimately we see in 
California; we see in Ohio; we see throughout America.
    This form of pollution, primarily driven from runoff and 
other waste considerations, nonindustrial, is in fact an area 
of pollution once not measured. Today, it in fact is not only 
measured, but household pollutants are in fact the largest 
single source of water concerns in America. Whether it is on 
the Chesapeake or here in New Hampshire, we have a problem.
    In your case, the need to reduce nitrogen levels by at 
least 73 percent, back to 1980 levels, are a clear goal. The 
question is not do you go back to that level. The question is, 
do you go beyond it, how much can the ratepayer pay, and are 
those dollars better used elsewhere?
    The EPA has a mission. That mission is clearly defined. But 
the levels that EPA seeks is in fact within a judgment 
decision. It is one of the reasons that Federal regulators, 
particularly your Congressman, asked us to come here and hear 
from local authorities of whether in fact this balance, this 
cost-benefit, is in fact being properly measured. More 
importantly, has the EPA bypassed or circumvented the state 
legislature and imposed its own requirement?
    As I prepared for this hearing, I found a mixed result. I 
have to side with EPA in one sense: There was in fact no clear 
vote of the legislature, and at some point there is a 
responsibility for the EPA to act. Do I believe, and do our 
witnesses believe that they acted appropriately, that they 
acted properly, or that they should have insisted that the 
legislature at least codify what some would say is a 
significantly flawed study?
    As we listen to our witnesses here today, it is not for us 
to be the final judges. It is for us to collect a record, make 
it available to the entire committee, and then urge the EPA, 
and, if appropriate, the State of New Hampshire to act in a way 
that is in the best interest of this community, and, more 
importantly, to set a standard for other projects around the 
country.
    As Congressman Guinta and myself recognize, our committee, 
no matter how many hearings we have, no matter how many 
investigators do work like this, we, in fact, are not doing 
work for one community. This community today is a community 
that we hope will set the stage for better decisions by the EPA 
and other agencies around the country. Ultimately, Congressman 
Guinta's leadership on this has been appreciated because, in 
fact, as a former mayor, he brought to the Congress an 
understanding of many of these issues and has been a leader in 
helping us understand some of the unique challenges faced in 
New England.
    And with that, I recognize my colleague for his opening 
statement.
    Mr. Guinta. Thank you very much, Mr. Chairman, for holding 
this hearing here in New Hampshire today.
    This is the first field hearing that I have had here in New 
Hampshire. I very much appreciate this issue being a central 
issue to the committee, and to you and to our staff.
    I also want to thank the distinguished witnesses for being 
here today, as well as the concerned Granite Staters who have 
great interest in the Great Bay issue.
    Personally, I want to first mention this is an incredibly 
important issue to me. This is the first piece of legislation 
that I ended up introducing in the House, called the Great Bay 
Community Protection Act. The reason that I proposed this 
legislation as one of the--as the first piece of legislation is 
that I was contacted by several of the contiguous communities 
in this region who expressed some concern about this issue.
    I think there is one common goal that we all share, and 
that we want to ensure that the estuary remains a wonderful 
asset to this region and to our state. There are, however, as 
the chairman pointed out, some differences of opinion as to how 
to meet the goal and objective of reducing nitrogen levels. And 
while I share the goal of reducing nitrogen levels in Great 
Bay, I think there are various ways that we can address and 
achieve that objective.
    So I think that there is a lot of common support. I think 
there are also different perspectives and different unique 
approaches into how to meet that objective.
    But what is the best way to achieve that objective? And 
that is why we are here: to hear different opinions and 
different viewpoints today. Some of the proposed solutions 
would carry very steep price tags for local municipalities, 
small businesses, and families, particularly here in Exeter, as 
well as the communities of Dover, Newmarket, Rochester, and 
Portsmouth, and I have heard from those communities over the 
course of the last year about that legitimate concern.
    So, today, I am here to listen to these communities and 
their representatives. I want to hear more about the individual 
plans that will be presented, and I would like to hear more 
about how residents will shoulder the financial impact of the 
decisions being made in their name. It is my hope that when 
this field hearing is concluded, we will have, and leave with a 
deeper, more complete understanding of exactly what is at stake 
for the Great Bay Estuary and how it impacts everyone.
    In addition, I feel that we also have the responsibility as 
American citizens to make sure that the Federal Government 
operates within its proper boundaries. Our government was 
specifically created to serve we the people. It exists to meet 
our needs, not to needlessly intrude into our lives. For as we 
are reminded in the Declaration of Independence, the government 
derives its powers from the consent of the governed. That is 
why this hearing I think is so important. Today, Granite 
Staters will make their voices heard on the permitting process.
    I am proud to say to the chairman and to the group here 
that this is not a partisan issue. Democrats, Republicans, and 
independents alike agree that EPA needs to take into 
consideration the views of the many people who live in the 
Great Bay Estuary and who would be directly impacted by the 
Agency's regulatory actions. Governor Lynch, Senator Shaheen, 
and Senator Ayotte have all raised the similar and same 
concerns and have shown their willingness and support to work 
collectively to try to address this issue. And I want to 
particularly commend Senator Shaheen, Senator Ayotte, and 
Governor Lynch for supporting a reasonable, long-term approach 
and compromise on how to best ensure that this estuary reduces 
nitrogen, but also does it in a meaningful way and in a way 
that does not significantly and financially place an undue 
burden on the communities that are here today.
    I also specifically want to commend EPA Region 1 Director 
Curt Spalding, who is here and will testify in the second 
panel, for his personal involvement in this issue. He has met 
with me personally and my staff to discuss options and 
alternatives for moving forward to a reasonable resolution, and 
I commend him and the EPA for trying to find a way to meet the 
concerns of the communities.
    Finally, I want to say my thanks to all of you for 
attending this hearing. New Hampshire is a place where we are 
very civically engaged and take great interest in our 
environment. I am here eager to listen to the witnesses who 
have agreed to testify today and I look forward to the 
question-and-answer period as well, and I yield back the 
balance of my time.
    Chairman Issa. I thank the gentleman.
    I would now like to ask unanimous consent that three 
letters presented to us be placed in the record: one from the 
Lamprey River's Advisory Committee, one from the Lamprey River 
Watershed Association, and the last a letter from Phil 
Gingbird--Ginsberg, I'm sorry--who is a member of the New 
Hampshire House.
    Without objections, so ordered.
    Chairman Issa. Thank you.
    Frank, would you like to introduce our witnesses?
    Mr. Guinta. Yes. Thank you.
    Chairman Issa. They are your community leaders.
    Mr. Guinta. Thank you very much, Mr. Chairman.
    We have in the first panel four distinguished individuals. 
First, the Honorable T.J. Jean, who is the mayor of the City of 
Rochester, New Hampshire, as well as a lifelong resident of 
Rochester, testifying on behalf of the Great Bay Municipal 
Coalition.
    Second, we have Mr. Dean Peschel of Peschel Consulting, who 
has extensive experience in environmental project management 
and is testifying on behalf of Dover, New Hampshire, and the 
Great Bay Municipal Coalition.
    Third, we have Mr. John Hall of Hall & Associates, who is 
one of the nation's leading environmental attorneys and is 
testifying on behalf of the Great Bay Municipal Coalition.
    And, finally, to conclude the first panel, we have Mr. Mr. 
Peter Rice, who is a water and sewer engineer for the City of 
Portsmouth, New Hampshire, and is testifying on behalf of the 
City of Portsmouth.
    Chairman Issa. Thank you.
    Pursuant to the committee rules, would you all rise to take 
the oath. Raise your right hand.
    [Witnesses sworn.]
    Chairman Issa. Let the record reflect that all witnesses 
answered in the affirmative. Please take seats.
    In Washington, we have the same red, yellow, and green 
lights. My predecessor on the committee, Chairman Towns, was 
always quick to remind people that this is not a new 
phenomenon, that green means go, yellow means prepare to stop, 
and red means stop. So I would ask you to try to time your 
opening statements to be as close to that five minutes as 
possible.
    I might remind you that your entire opening statement is in 
the record, and since none of you are presidential 
administration witnesses, you undoubtedly have a little ability 
to summarize if necessary.
    And with that, Mayor, you are recognized.

                     STATEMENT OF T.J. JEAN

    Mr. Jean. Good morning. My name is T.J. Jean and I am the 
mayor of the City of Rochester.
    On behalf of the city, I want to extend our sincere thanks 
for your willingness to hold this oversight hearing which is 
addressing issues of critical importance to the City of 
Rochester and its citizens.
    The purpose of my testimony today is to discuss with you 
the severe financial impacts which the regulatory actions 
proposed by the United States Environmental Protection Agency 
will have on our city and its citizens.
    Rochester is committed to protecting the natural 
environment for the benefit of its citizens and all citizens of 
our state. However, Rochester and other major cities in the 
Great Bay area are concerned that the proposed regulatory 
actions designed to protect the Great Bay are not based upon 
sound science, and, if implemented, would do more than 
constitute a waste of scarce local resources. It would 
financially cripple our city, prevent us from attracting and 
maintaining our business base, and impose an unreasonable 
financial burden on our citizens and ratepayers. We are 
disappointed that the EPA would gamble away our future based on 
little more than guesswork. This committee needs to stop the 
EPA now and insist on an independent review of their actions.
    Like other New Hampshire municipalities, Rochester has been 
adversely impacted by the recent national economic downtown. 
However, those impacts have been felt even more significantly 
in our city.
    By way of brief background, the poverty rate in Rochester 
is at 13.1 percent, the highest of any city in the Strafford 
County region. The Rochester School District has 32.6 percent 
of its student population eligible for free or reduced lunch. 
Rochester accounted for 31.6 percent of foreclosures in the 
Strafford County region, with 118 foreclosures in 2011 alone. 
The city's tax base or net assessed value has decreased each of 
the last three years, from approximately $2.36 billion in 2009 
to approximately $2 billion in 2011.
    It is no surprise that this recent economic downturn has 
resulted in significant job losses in our city. In the last 
three years, Rochester has experienced 504 lost jobs or 58 
percent of the regional employment loss. The largest of those 
jobs involved 374 jobs lost at Thompson Center Arms, formerly 
the city's largest employer.
    With respect to the employers which remain in the city, 
shifting and unstable international economics have put 
additional pressure on manufacturers with global products, such 
as medical devices, composite materials, machine parts, and 
aerospace components, all major employment sectors in 
Rochester. The result of the foregoing is a ripple effect 
throughout our local economy and that consumer spending has 
dropped significantly, having major impacts on the downtown 
business district and the retail and hospitality sectors in our 
city.
    While the financial resources of the city and its citizens 
have plummeted, the financial obligation imposed upon and 
accepted by the city to meet the basic needs of its residents 
has increased. The city continues to finance a number of 
important major capital expenditure projects to meet the needs 
of our citizens. These include major bridge and road 
rehabilitation and reconstruction projects to better serve our 
community. As a result, wholly apart from those projects which 
the regulations which are subject of this hearing could impose 
on the city, the city's annual debt expense is projected to 
increase from approximately 4 million per year to approximately 
6.3 million per year over the next five years. This brings me 
to the financial impacts proposed by the EPA mandate.
    Rochester has been informed that EPA intends to issue a new 
permit requirement for both total nitrogen and phosphorus, 
which would require the city to construct an additional 
wastewater treatment facility. The city is still retiring a $20 
million debt-related bond relative to our wastewater treatment 
plan improved in 1997. The city recognized at the time that the 
construction of these upgraded facilities was appropriate to 
protect the health of the Cocheco River, its aquatic 
environment, and its users.
    The EPA's latest mandate will likely require that facility 
with outstanding bonds to be abandoned, as EPA has now changed 
its regulatory focus to total nitrogen. However, the city has 
been informed by its consultants that EPA's new proposed 
nitrogen and phosphorus limitations are not based on sound 
science and will not result in demonstrable benefits to the 
aquatic environment of the Cocheco River or Great Bay. While I 
am not qualified to discuss that science, I am certainly able 
to discuss the financial impact which implementation of those 
requirements would have on the city.
    EPA's indifference to mandating major local expenditures 
every time a new permit is issued based on the flimsiest of 
information simply must cease. We cannot offered such multi-
million-dollar guesswork. Our consultants have advised us that 
the capital costs related to the upgrade to the city's 
wastewater treatment facility necessary to comply with the 
proposed nitrogen and phosphorus limits would be approximately 
$20.5 million. Assuming a 20-year amortization period at 5.5 
percent interest, this would result in additional debt service 
costs of approximately $2 million per year beyond those I 
previously mentioned. After capital construction is complete, 
additional operating costs required to meet these permit limits 
would be approximately 2 million per year, beginning in fiscal 
year 2016.
    The impact of these costs on our sewer rates is staggering. 
The city's current sewer rate is $6.11 per 100 cubic feet, 
already among the highest in the region. Compliance with the 
latest EPA mandates would immediately result in a 23 percent 
increase in rates. By fiscal year 2016, the projected sewer 
rate would more than double to $12.50 per 100 cubic feet, which 
would, in turn, mean an estimated yearly user bill of $1,200 
per year in fiscal year 2016.
    I see my time has elapsed. I just would like to conclude by 
saying and reaffirming that the city is committed to take 
whatever steps are necessary to protect the health of its 
citizens and the natural environment of Rochester and its 
surroundings. However, the city should not be forced into the 
kind of economic crisis outlined above for little or no 
demonstratable environmental benefit.
    I appreciate your attention to my remarks and hope you will 
give them due considerable in your role of overseeing these 
proposed regulatory actions.
    Thank you.
    [Prepared statement of Mr. Jean follows:]

    [GRAPHIC] [TIFF OMITTED] T5303.001
    
    [GRAPHIC] [TIFF OMITTED] T5303.002
    
    [GRAPHIC] [TIFF OMITTED] T5303.003
    
    Chairman Issa. Thank you.
    Mr. Peschel?

                   STATEMENT OF DEAN PESCHEL

    Mr. Peschel. My name is Dean Peschel of Peschel Consulting, 
and I'm speaking on behalf of the City of Dover and the Great 
Bay Municipal Coalition.
    Congressman Issa, Congressman Guinta, thank you for 
convening this hearing of the Oversight and Government Reform 
Committee here in Exeter.
    The USEPA has proposed limit of technology nitrogen permit 
limits of 3 milligrams per liter for the coalition communities' 
wastewater treatment facilities. Nitrogen removal will require 
all wastewater treatment plants to either modify their existing 
facility or completely build new facilities.
    New Hampshire DES Environmental Services issued a draft 
nutrient criteria in 2008 which establishes a very low water 
quality standard. EPA relies heavily on this analysis in 
justifying strict nitrogen limits in the draft permits. The 
coalition communities reviewed the nutrient criteria and 
questioned the underlying assumptions and analysis used. Expert 
consultants were engaged by the coalition to review both the 
science and to analyze the potential economic impacts to meet 
the likely permit limits. Holland Associates of Washington, 
D.C., and HydroQual of Mahwah, New Jersey, were the nationally 
recognized technical experts selected. Applied Economic 
Research of Laconia, New Hampshire, was the firm chosen to 
assess the economic impacts associated with these upgrades.
    Our technical experts reviewed the nutrient criteria and 
told us the document has fatal flaws in the methodology and 
incorrectly concludes that nitrogen is causing excessive algae 
growth which is reducing water clarity in the estuary.
    Chairman Issa. Mr. Peschel, could you speak just a little 
louder? I apologize, but----
    Mr. Peschel. Sure.
    Chairman Issa. That mic, the one you have closer, that is 
the one that counts the most from the standpoint of the record.
    Mr. Peschel. Thank you.
    The consultants further informed us the nitrogen water 
quality standard established by DES is unattainable and will 
likely require communities to expend even more resources on 
stormwater reductions indefinitely into the future, at a cost 
two to five times more than that of the wastewater treatment 
upgrades. Based on stormwater costs incurred in other states, 
the basin-wide costs to meet EPA mandates could easily exceed 
$1 billion. That's a staggering number.
    EPA has issued three draft permits which use the draft 
criteria as justification for imposing limit of technology 
nitrogen limits. John Hall will address how this action 
violated Clean Water requirements in more detail with you.
    Our economist, Russ Thibeault, principal of Economic 
Research, is a well-respected national expert. AER was provided 
the capital costs, operation and maintenance costs expected, 
and over a range of nitrogen removals. The cost for the five 
communities to meet a 3-milligram-per-liter limit is $588 
million. This represents a huge environmental cost. The costs 
represent capital costs, the building improvements, O&M, and 
the cost to finance it over a 20-year period. If we look closer 
at the economic impacts for the City of Dover, we see that the 
cost to meet an 8-milligram-per-liter limit is 36.4 million, 
and a 3-milligram-per-liter, 94 million. That's a difference of 
$58.5 million.
    The City of Dover and other coalition communities do not 
want Great Bay to continue to degrade. The communities also 
want to ensure that the investments to improve the conditions 
in the estuary are effective and achieve intended results. It 
is clear to us that requiring the communities to upgrade 
wastewater plants to limits of technology is unwarranted and 
will not achieve the desired results, at an extraordinary cost 
to the ratepayers.
    Times have changed dramatically with respect to funding 
wastewater. 20 years ago, when the Dover treatment plant was 
constructed, federal grants paid for 95 percent of those 
capital costs. Today, the local ratepayer will be paying 100 
percent of all the costs.
    In order to move the process forward, the coalition 
developed an alternative approach to the 3-milligram-per-liter 
permit. Nitrogen levels have increased. We do not want them to 
continue to increase unabated. Nitrogen sources in the 
watershed are estimated to be 25 percent to 30 percent from 
point sources and 65 to 75 percent from non-point sources.
    Chairman Issa. If you could wrap up.
    Mr. Peschel. Yes.
    The coalition has proposed an Adaptive Management Plan. It 
will provide significant nitrogen reduction quickly, addresses 
both point and non-point sources, funds needed for monitoring 
the restoration, and avoids legal appeals and a waste of 
financial resources and delays of implementing nitrogen 
reduction. A copy of that plan is attached to this written 
testimony. And I will wrap up----
    Chairman Issa. Without objection, it will be placed in the 
record in its entirety.
    Mr. Peschel. Thank you.
    The coalition believes that the Adaptive Management Plan is 
an effective and rational approach that will engage the entire 
watershed community, not just the sewer ratepayers. It will 
build upon success that will lead to future success and garner 
the public support needed to fund future improvements over the 
long term. It will provide significant nitrogen reduction at an 
affordable cost, and, most importantly, provide a process to 
determine if additional reduction is needed. It will also save 
over $200 million in expenditures that have no proven need for 
benefit.
    With that, I will conclude, and thank you very much.
    [Prepared statement of Mr. Peschel follows:]

    [GRAPHIC] [TIFF OMITTED] T5303.004
    
    [GRAPHIC] [TIFF OMITTED] T5303.005
    
    [GRAPHIC] [TIFF OMITTED] T5303.006
    
    [GRAPHIC] [TIFF OMITTED] T5303.007
    
    [GRAPHIC] [TIFF OMITTED] T5303.008
    
    Chairman Issa. Thank you.
    Mr. Hall?
    I will take a moment for the mics to catch up.

                     STATEMENT OF JOHN HALL

    Mr. Hall. To rearrange. Thank you.
    Good morning, Chairman Issa, Congressman Guinta, and 
members of the committee. My name is John Hall. I am a 
principal of Hall & Associates, an environmental firm that 
represents the Great Bay Municipal Coalition.
    As mentioned in earlier testimony, the Region's actions 
will needlessly impose restrictive nutrient reduction 
requirements that will adversely impact these local economies 
for decades to come, and unfortunately not produce the intended 
environmental improvements.
    In seeking to impose some of the most stringent nutrient 
limits in the nation, the Region has also violated several 
mandatory duties under the Clean Water Act, as well as several 
other EPA rules and policies that are designed to protect due-
process rights and ensure that only reliable scientific methods 
are employed in regulatory decision-making.
    As noted earlier, the Region has issued three draft NPDES 
permits that impose very stringent total nitrogen requirements. 
These nitrogen limits are based on draft water quality criteria 
that have never been formally adopted by the State or formally 
approved by EPA, a practice that is strictly prohibited by the 
Clean Water Act and EPA's regulation known as the Alaska Rule.
    To quote EPA in its ``Questions and Answers on the Alaska 
Rule,'' I quote: ``The CWA Section 303(c)(3) is explicit that 
all standards must be submitted to EPA for review and must be 
approved by EPA in order to be the applicable standard. Under 
actions Section 303(d), the State must base listings on the 
applicable water quality standard. The State cannot use the new 
standard for CWA purposes, e.g., in a final permit, until EPA 
has approved that standard.''
    However, the Region simply ignored these requirements. It 
knew it had these mandatory duties, and early on recommended 
that the State quickly move to adopt the criteria into its 
standards, which would have then given the public an 
opportunity for active input. When the State failed to do so, 
the Region came up with the idea to call the draft numeric 
criteria something else--a narrative criteria interpretation--
as if that changed any procedural requirements or the mandatory 
duties under the Clean Water Act.
    In addition, if not more importantly, the Region knew that 
there was no cause-and-effect relationship between total 
nitrogen and the eelgrass loss for the estuary, and this was 
based on prior federally-funded research specifically directed 
at this issue. Nonetheless, the Region adopted the position 
that stringent nitrogen limits were essential to restore 
eelgrass populations, and limits of technology were mandated 
which would then also trigger very stringent land use controls 
in these same areas.
    The Region's insistence on using unadopted numeric criteria 
and permits and impairment listings plainly violates the public 
notice and town requirements included in the Act in part 131. 
After circumventing the required approval process in March 
2011, the Region then undertook additional efforts to exclude 
the public from a peer-review process that was intended to 
bless the criteria. When the coalition found out about the 
impending peer review, they specifically requested an 
opportunity to participate in that action. The coalition 
submitted comments to the State and Region based on major 
technical deficiencies in the draft criteria. However, the 
Region refused to allow the peer reviewers to address any of 
these points and concerns. This is directly at odds with 
Section 101(e) of the Clean Water Act, which mandates that the 
Agency must promote public participation in any review and 
modification of standard, not prevent it.
    Since the peer review, the affected communities have 
repeatedly submitted detailed, site-specific information 
clearly showing the proposed permit requirements were 
fundamentally flawed. To date, all of those submissions have 
been ignored without comment. It is now apparent that serious 
regulatory violations, bias, and, in fact, scientific 
misconduct underlie the Region's actions.
    The communities believe that the record is clear that the 
Region is determined to implement a predefined regulatory 
agenda of stringent nitrogen limits:
    One: Even after a federally-funded Technical Advisory 
Committee for the Great Bay confirmed there was no cause-and-
effect relationship between nitrogen, transparency, and 
eelgrass loss;
    Two: Even after EPA's own Science Advisory Board stated 
that the type of simplified analysis the Region now wants us to 
use to support to a more restrictive approach is not 
scientifically defensible;
    Three: Even after the Region itself internally identified 
major scientific deficiencies and significant conflicts with 
the Science Advisory Board recommendations.
    These are serious issues. What is the point of having a 
local or federal Science Advisory Board if the agency is simply 
going to ignore the findings and continually employ methods 
that are criticized as fundamentally flawed, and, for that 
reason, will likely misdirect resources?
    In closing, it's apparent to the coalition communities that 
the Region appears to have no intention of conducting a 
comprehensive, impartial scientific review. For that reason, 
the coalition submitted a letter to EPA headquarters on May 
4th, documenting science misconduct and requesting that the 
matter be withdrawn from the Region and transferred to an 
independent panel of scientific experts. The coalition 
continues to support this request as the only viable means for 
an objective review that will help ensure the local resources 
are not squandered on misdirected policy mandates.
    We appreciate the committee's investigation into this 
matter and hope that this can be resolved in the near future.
    The details supporting this testimony, including the 
misconduct letter with numerous attachments are included in the 
record, Mr. Chairman. I request that they be included.
    [Prepared statement of Mr. Hall follows:]

    [GRAPHIC] [TIFF OMITTED] T5303.009
    
    [GRAPHIC] [TIFF OMITTED] T5303.010
    
    [GRAPHIC] [TIFF OMITTED] T5303.011
    
    [GRAPHIC] [TIFF OMITTED] T5303.012
    
    Chairman Issa. No objection. They will all be included in 
the record.
    Mr. Rice?

                    STATEMENT OF PETER RICE

    Mr. Rice. Thank you, Mr. Chairman, Congressman Guinta.
    On behalf of the City of Portsmouth and the Great Bay 
Municipal Coalition communities, I'd like to thank you for this 
opportunity to testify today.
    My name is Peter Rice. I'm the city engineer for the City 
of Portsmouth, and I've worked in this position for the last 10 
years. Prior to working for the city, I worked as a consulting 
engineer. I'm a registered professional engineer and I have 
served in a variety of state wastewater commissions and 
organizations, and have been involved in the Great Bay nutrient 
issues since 2002.
    A copy of my resume has been included in my testimony.
    The City of Portsmouth is a small city, about 21,000 
people, but despite our small size, we have big-city 
infrastructure problems. The city owns and operates two 
wastewater treatment facilities, has over 120 miles of sewer 
pipe, and manages 20 pumping stations. Communities such as 
Portsmouth want predictable, scientifically supported 
environmental regulations that deliver demonstratable 
environmental benefits. Within such a regulatory framework, 
limited municipal resources can be secured, budgeted, and 
invested wisely to deliver necessary services for the maximum 
environmental benefit.
    In 2002 I assumed my predecessor's position on the State 
Water Quality Standards Advisory Committee. On this committee I 
became involved with the Nutrient Technical Advisory Committee 
for the New Hampshire Estuarine Project, which is currently 
known as Piscataqua Region Estuarine Partnership, or PREP. The 
purpose of this technical advisory committee was to provide 
technical peer view on the science used to develop water 
quality standards for the estuaries of New Hampshire. A 
specific focus of this committee was whether and how nitrogen 
could be affecting the bay ecology, in particular, eelgrass 
populations.
    In 2005 EPA directed the State to develop nutrient 
standards for the estuary. This was part of a national effort 
on EPA's part. Up until late 2008, nitrogen, although a 
concern, was not identified as a source of impacts on the bay. 
In particular, it was concluded, based on federally-funded 
studies, that increased nitrogen levels had not caused 
increased algae growth and had not adversely impacted water 
transparency in the bay.
    I have attached with my comments presentations given by the 
New Hampshire Department of Environmental Services staff 
relative to these conclusions.
    In 2008 there was an abrupt turnaround. At a State Water 
Quality Standards Advisory Committee meeting, a simplified data 
analysis was presented which ignored previous detailed studies 
and reached an opposite conclusion. This incorrect analysis was 
supported by EPA and subsequently became the basis for setting 
standards and declaring virtually all waters in the estuary 
nutrient-impaired. All of this occurred without any formal 
adoption in accordance with law or formal approval of the 
criteria by EPA as a new water quality standard. Thus, the 
impacted communities had no opportunity to challenge these 
changes.
    As a result of this about-face, Portsmouth reached out to 
other communities with wastewater treatment facilities to 
discuss the State's water quality criteria. The change in the 
State's conclusions with regard to the role of nutrients 
spelled trouble for the municipalities discharging into the 
Great Bay Estuary. The proposed criteria for nitrogen is not 
achievable and has been used by EPA to claim that nitrogen must 
be treated to limit of technology at wastewater treatment 
facilities and that stringent stormwater treatment must also be 
implemented to improve water transparency.
    On March 15, 2010, I attended a Water Environment 
Federation EPA briefing in Washington, D.C. Mike Hanlon, the 
EPA director of wastewater management, advised attendees that 
the EPA didn't have the time or money to do the science and 
that the EPA was going to apply the Chesapeake Nutrient 
Criteria Program nationally.
    The following day, at a congressional briefing breakfast, I 
was told by the Regional Administrator Spalding that until 
Portsmouth and other communities developed their own science, 
EPA would not consider our communities' concerns.
    Complicating EPA's apparent limited time and money were the 
interest of nongovernmental organizations which appeared to be 
having a disproportionate impact on the water quality process 
and setting of permit limits. I was told that the regulators 
were more worried about possible lawsuits by NGOs than they 
were afraid of municipalities. This deference to the NGOs is an 
indication that EPA is more concerned about policy issues than 
getting science right and implementing cost-effective solutions 
to protect and improve the environment. This involvement by 
NGOs may explain why our repeated requests for involvement of 
our technical experts were either rejected or trivialized.
    For example, Portsmouth was given assurances by 
representatives of the New Hampshire Department of 
Environmental Services that we could participate in a formal 
EPA peer review of the draft nutrient criteria. Instead, 
Portsmouth and other communities were excluded from the peer-
review process at an EPA level. This EPA peer review was 
carefully orchestrated, exercised, designed to provide an 
appearance of scientific credibility through fundamentally-
flawed nutrient criteria that met EPA's policy objectives. I 
have attached the correspondence relative to that process in my 
statement.
    Rejecting the public's ----
    Chairman Issa. Without objection, that will be placed in 
the record.
    Mr. Rice. Thank you.
    Rejecting the public's request for an inclusive, objective, 
and open process, the regulators have delayed action which 
would have yielded environmental benefits in the near term. By 
ignoring good science, the EPA's regulatory process has set up 
unachievable goals which will misapply scarce public funds 
while not achieving the intended goals, and force communities 
to spend their money on lawyers instead of science and 
solutions.
    In summary, the Great Bay Municipal Coalition is committed 
to protecting and restoring the Great Bay, but we believe the 
existing science does not support the regulatory decisions 
being made and should not be the basis for NPDES permits.
    I would like to thank you for this opportunity to let me 
speak today.
    [Prepared statement of Mr. Rice follows:]

    [GRAPHIC] [TIFF OMITTED] T5303.013
    
    [GRAPHIC] [TIFF OMITTED] T5303.014
    
    [GRAPHIC] [TIFF OMITTED] T5303.015
    
    [GRAPHIC] [TIFF OMITTED] T5303.016
    
    [GRAPHIC] [TIFF OMITTED] T5303.017
    
    [GRAPHIC] [TIFF OMITTED] T5303.018
    
    Chairman Issa. Thank you.
    I will recognize myself for the first round of questions.
    As you may have seen on C-Span from time to time, our 
questions are not designed to be softballs, and they won't be 
here today.
    Mayor, you spent a lot of time telling us about the money 
cost and the problems in the community, the unemployment, and 
the like.
    Do any of those provide any legitimate reason to not go 
forward with whatever is the requirement under the Clean Water 
Act and whatever would provide a return of health to the 
estuary?
    Mr. Jean. Well, I can only speak to the point that, right 
now, if we were to encumber that amount of debt service to meet 
the nutrient limits, the ratepayers of Rochester would have 
their sewer bills double, and that would remove basically all 
disposable income that they might have to help in the business 
sector.
    Chairman Issa. No, I appreciate that. The question was one 
that I think in Washington we have to be sensitive to, but 
hopefully here in New Hampshire, you are sensitive to it, too.
    Ultimately, if it is necessary to double the rates in order 
to clean up the estuary to an acceptable level--in other words, 
to mitigate the damage being done by human activity--isn't the 
requirement absolute if it's necessary?
    Mr. Jean. If it's necessary, absolutely, yes.
    Chairman Issa. Okay. And I just want to make that clear, 
because often we sort of talk about what we can't afford. And 
in this case, we are the polluters: every home, every runoff 
and stormwater and so on. And I did not think you were saying 
that one offset the other, other than we need to be very 
careful to make sure that in fact it is necessary.
    Mr. Peschel, you went a lot into procedure as did Mr. Hall, 
but particularly, you mentioned the State--I'm sorry, Mr. Hall 
mentioned that.
    Let me ask you a question. You feel that the science of 
essentially half as expensive a solution is the appropriate 
science, don't you?
    Mr. Peschel. I do. And I think, you know, based on the 
information that our consultants, the technical consultants 
provided, there is great doubt that what is being proposed by 
the EPA is necessary.
    Chairman Issa. Well, now, I am a businessman, and for the 
20-plus years I was in business, I know that you generally get 
from your consultants what you seek to get. In other words, 
they work hard to reach a goal that you ask them to get.
    I am presuming that you asked them to get the least 
expensive way to reach a goal that you thought was reasonable. 
Is that correct?
    Mr. Peschel. No, it wasn't correct.
    Chairman Issa. You just gave them a blank slate of what 
would it take?
    Mr. Peschel. What we told them when we hired our 
consultants was that we wanted an honest review of the 
information that was being presented as being justified by the 
state nutrient criteria.
    Chairman Issa. What if they are wrong? What if they are 
wrong? What if the EPA allows you to go forward with your 
level, the 8 milligrams rather than the 3? What if, in fact, 
three years, four years, five years--roughly 2020 you would be 
at that point--you'd see that it's not working?
    Mr. Peschel. Then we would have the information that we 
need to make the additional improvements. That has always been 
our understanding and our plan.
    Chairman Issa. So you're----
    Mr. Peschel. What we don't want to do is spend money that 
is not necessary.
    Chairman Issa. Is that true of--I mean, each of you 
represents, I guess four of the five cities involved, or at 
least is affiliated.
    If in fact your plan were to be adopted with a measure and 
renewal period, is it your understanding that, you know, you 
don't get to do this for 20 years for the life of those bonds; 
that you might, in fact, by choosing a less expensive solution, 
if you don't achieve the goals that in fact--in other words, 
the return of health of the estuary--that in fact you could 
find yourself back again with a new financial impact? Is that 
an understanding that you have here today?
    Mr. Peschel. Absolutely. And any design that we would 
undertake to meet, you know, say, the 8 milligrams per liter, 
if we were to be found that it's not sufficient, we haven't 
lost anything. The actions are supplemental. We would just add 
on to what we've already done. So----
    Chairman Issa. Sort of when you cut curtains, you want to 
make sure you cut them but not too short, because you can take 
more away; you can't add on?
    Mr. Peschel. Right. That's not the case in this particular 
situation. We can add on, and it won't have been money lost on 
the initial.
    Chairman Issa. Mr. Hall, you went into great detail on the 
violations of procedure. Ultimately, you also, I gather, 
believe that they reached the wrong conclusion. But even if 
they reached the right conclusion, do you feel that, in fact, 
the lack of due process on both sides is part of the fatal flaw 
of EPA reaching this conclusion?
    Mr. Hall. Well, there is a serious error and lack of due 
process in the manner in which the procedure went forward, and 
that does need to be corrected. Quite frankly, we wouldn't be 
sitting here raising just a due-process issue if any of us 
thought that----
    Chairman Issa. But I'm asking for a reason. We have before 
us a document that indicates EPA is scared stiff of the sue-
and-settle crowd, the NGOs that will sue if they fail to abide 
by every nuance of the rule.
    Ultimately, if they had erred on the side of you, with the 
same, in other words, if they picked you arbitrarily and 
quickly, wouldn't they have been in the same boat, except in 
this case it would have been NGOs suing them?
    Mr. Hall. Well, actually, it was the NGOs that originally 
sued EPA to establish the Alaska Rule. They said, ``You are 
changing water quality criteria without going through the 
process. You are cutting off our ability to provide the 
science, the input, the process. You are cutting off our 
ability.''
    So they're the ones that originally sued to make this 
rule----
    Chairman Issa. So all you're really asking for is what the 
environmentalists demand and have sued to get: an open and fair 
process with certain comment requirements that you've been 
denied?
    Mr. Hall. That would be a very fair way of stating the 
position.
    Chairman Issa. Let me just ask--and if I could ask for a 
couple more minutes. But--and I said this in my opening 
statement--isn't the EPA also in a box because of inaction by 
the state legislature? In other words, at some point we in 
Washington, if a state simply chose not to act, and so far the 
state legislature has not acted--isn't there a time limit at 
which at some point we have to allow the EPA to take some 
action? Regardless of their violating procedure, ultimately 
they did have a need to act if in fact a state legislature 
never acted?
    Mr. Hall. Oh, most certainly. There is a provision under 
the procedures of 303(c)(3). If a state refuses to take action 
or delays in taking action on updating the water quality 
criteria, the EPA sends them--it's basically a 60-day notice 
letter.
    Chairman Issa. Has the EPA sent that?
    Mr. Hall. No, that letter has not gone out. That was the 
letter that they sent to the state of Florida that triggered 
the Florida water quality standards adoption.
    Chairman Issa. So, essentially, they haven't given the 
state legislature notice to sort of pay rent or quit, to in 
fact do its job or be bypassed?
    Mr. Hall. Correct. That has not happened.
    Chairman Issa. Lastly, Mr. Rice--and I'll be brief--but it 
sounds like you're describing in this process, and from the 
conference you attended, a ready-shoot-aim procedure going on 
by EPA. They tell you they have no time, they tell you they 
have no money, but they're saying, ``Do it anyway.''
    Is that pretty fair?
    Mr. Rice. That is a pretty accurate approach, or statement, 
yes.
    Chairman Issa. And where is, in any of your understanding, 
where is in fact the assumption that the science has to be 
disproved--or has to be established as disproving from the EPA, 
rather than EPA coming down with science that supports their 
assertions on water or air? Because it sounds like they're 
asking you to prove by your science what you want to do, while 
in fact they say there's no time and no money for them to 
establish scientific standards in this case.
    Mr. Rice. We asked to participate in the scientific process 
four or five years ago. We said that we would participate 
financially, contributing to the sampling process as well as 
with our technical experts. We were told at that time that they 
had their science and, you know, ``You don't need to 
participate.'' We felt that our participation would have 
benefited the process and would have gotten us farther along.
    In order to know if a decision--a solution works, you need 
to have a foundation that's solid, so that a financial decision 
that's made, you can build and measure if that decision was 
good. If you don't have a ability to measure if something is 
good or not, or that does what you think it's going to do, 
you'll continue to spend money on a solution that may not be a 
solution.
    So what we argued was that we needed to be able to really 
build and measure, and that's part of this adaptive management 
approach was that we would be able to say, ``We're not going to 
preclude better decisions in the future by jumping all the way 
to some foregone conclusion.'' We would be able to build, see 
the improvements. If their science is correct, we should see a 
40 percent reduction on our incremental step in terms of the 
nutrients going into the bay. That change should have a marked 
improvement if their theories are correct.
    We do not believe they're correct. We do not believe the 
science supports the conclusions that they have made.
    Chairman Issa. Let me just close with, in all of your 
statements, you talked in terms of eelgrass not being affected 
by this. So your theory is, you will do the reduction for other 
reasons and that ultimately eelgrass will continue to have a 
problem that you don't know the source of. Is that roughly 
correct?
    Mr. Hall. Mr. Chairman----
    Chairman Issa. Yes. There's water clarity you mentioned.
    Mr. Hall. Actually, more importantly, they actually do know 
the source of the problem. The research was completed. It 
concluded--which was kind of obvious when you looked at the 
data--that nitrogen had not caused the effect that they thought 
it did.
    There's an interesting thing that happens in the watersheds 
in this area. There's a lot of swamps. When it rains a lot, 
colored water comes out of the swamps. When colored water comes 
out of the swamps, it goes into all the tributaries and turns 
them dim. The light can't penetrate. The federal studies found, 
yes, in fact, that's the primary cause with why there's poor 
transparency in various areas. Having found that conclusion, it 
was then tossed out, because there was this drive for nutrient 
criteria. I mean, it was as if it was a solution in search of a 
problem.
    So that's the unfortunate part, and that's what Mr. Rice is 
talking about, about having a----
    Chairman Issa. That you reduce the nutrient, and water 
clarity will not change therefor?
    Mr. Hall. Yeah. It doesn't change it. Yeah. It has no 
effect on it.
    Chairman Issa. I've exceeded my time.
    Mr. Guinta.
    Mr. Guinta. Thank you very much, Mr. Chairman. I want to 
start with Mayor Jean.
    I just want to ask you a simple question. Do you support 
ensuring that Great Bay remains clean?
    Mr. Jean. Absolutely.
    Mr. Guinta. Okay. During the course of your testimony, you 
commented that protecting the natural environment for the 
benefit of its citizens and all the citizens of the New 
Hampshire is important, but that you were also concerned that 
the nitrogen and phosphorus discharge limits proposed by the 
EPA were unnecessarily strict.
    As an alternative, in other testimony, the AMP, or the 
Adaptive Management Plan, has been proposed. Rochester has 
joined in supporting the Adaptive Management Plan. Can you talk 
to me a little bit about why that Adaptive Management Plan is 
more reasonable from a financial perspective for the City of 
Rochester?
    Mr. Jean. Certainly.
    Right now the City of Rochester is at approximately 30 
milligrams per liter of nitrogen, and the Adaptive Management 
Plan brings us closer to 8. The most important part of the plan 
is, it will give us some time to collect some hard data that 
would show whether or not what we're doing for total nitrogen 
will actually improve the status of Great Bay or not, and we 
felt that that was probably the most cost-effective and 
reasonable number to achieve, and that's why the city supports 
that, from a financial standpoint.
    Mr. Guinta. Now, you talked a lot about the potential cost 
to taxpayers. Taxpayers in the City of Rochester have a tax 
bill, but they also have a sewer bill?
    Mr. Jean. Correct. Correct.
    Mr. Guinta. You mentioned a $2 million annual increase in 
the bond for, I would assume the wastewater treatment?
    Mr. Jean. Correct.
    Mr. Guinta. You said that would double the rate, and you 
testified to the rates.
    Can you give me an idea what the average amount that a 
family or household is paying currently for----
    Mr. Jean. Sure.
    Mr. Guinta. Is it billed quarterly?
    Mr. Jean. It's billed quarterly, and right now, at the 
current rates, you're looking at a sewer bill that's probably 
about, I'd say close to $600 annually.
    So if you were to impose the debt service that a wastewater 
treatment plant upgrade would entail, you're looking at about 
$1,200. And that's just the sewer side. That doesn't count 
water. Of course, there's both sides to the water and sewer 
bill.
    Mr. Guinta. Right.
    And that would be just if this mandate----
    Mr. Jean. Correct.
    Mr. Guinta.--was implemented?
    Mr. Jean. That's correct.
    And what's important to note is, of course, if this were an 
upgrade that would be spread between the entire commercial and 
residential tax base, that would be one thing. But this is 
focused directly to the ratepayers who subscribe to the 
wastewater treatment service that we provide. So it's a smaller 
number, as opposed to the broad width of a residential tax 
base.
    Mr. Guinta. And you mentioned that the valuation of the 
city since, I think you said '09, has been declining?
    Mr. Jean. Correct. Has diminished from $2.6 billion to 
approximately $2 billion.
    Mr. Guinta. Which is not uncommon for economic conditions 
that the entire country is in.
    Mr. Jean. That's correct.
    Mr. Guinta. There are many other communities that are 
also--their value is declining.
    Mr. Jean. That's correct.
    Mr. Guinta. Which means that either, just from a 
mathematical perspective, either you have less tax base to tax. 
So if you're going to have the same amount of money, the same 
amount of services, you've got to increase taxes or you've got 
to somehow cut back on the expenses of the city to equalize 
that reduction in value.
    Mr. Jean. That's correct. But there was a reduction in 
revenue.
    Mr. Guinta. Now, has the tax rate increased over the last 
several years in the City of Rochester?
    Mr. Jean. It has.
    Mr. Guinta. What's the rough average increase?
    Mr. Jean. You're looking at approximately 3 percent, 2.5 to 
3 percent over the last three years.
    Mr. Guinta. Okay. And this issue, this mandate would be in 
addition to 2.5 to 3 percent annual increase?
    Mr. Jean. Yes.
    Mr. Guinta. So this issue, this mandate would be in 
addition to the 2.5 to 3 percent annual increase?
    Mr. Jean. That's correct.
    Mr. Guinta. The second point I wanted to make with the 
mayor is that the Great Bay Municipal Coalition, which includes 
Rochester, has initiated litigation against the State and the 
State DES, alleging that it violated the state rule-making 
process by neglecting to conduct a formal rule-making process.
    I don't know if I should ask you this or maybe Mr. Hall or 
Mr. Rice.
    My particular question is, if the State of New Hampshire or 
the EPA were to follow the procedures that the EPA put in 
place, and ensured that the state legislature had a proper 
review, that obviously would take some time. It would happen 
over either one cycle or maybe two bienniums. That would 
provide at least some additional time to create different or 
better science, or maybe more agreed-upon science. But, 
secondly, it would put you in a position as a city, one of the 
contiguous communities, to try to identify a means in which you 
could pay for this, long-term.
    Is that a fair statement?
    Mr. Jean. That would be fair, and I could defer to Mr. Hall 
if there's any--anything that he would like to add about the 
DES process. But I think that's an accurate assessment.
    Mr. Guinta. Well, in the next round of questioning, maybe 
I'll get into the specifics on procedure, because I think that 
is extremely important.
    Mr. Hall. The only point being, the chairman raised whether 
EPA had taken the step of sending the letter to the State, 
saying, ``Why have you not adopted the standard?'' Because the 
regulatory agencies did not do what they were supposed to do, 
we're now going to court to make them do precisely that.
    So, you know, we're the ones that are moving the regulatory 
process along its proper path. We wish we didn't have to do 
that, but that's the situation we're stuck in right now.
    Mr. Guinta. And the final question, I guess I want to ask 
Mayor Jean.
    I know that your method of governance is one of inclusion, 
and I know that one of your focuses has been trying to improve 
the economic condition of Rochester as an extremely important 
city to the county and to this region.
    If you were to have five businesses that you were courting, 
and you were to include, as a matter of proper disclosure, that 
there's a potential that there would be significant increases 
on this side of the ledger, how would that affect your ability 
to attract new, smaller businesses, job creators, and how would 
that put you in a competitive disadvantage--advantage or 
disadvantage to other communities?
    Mr. Jean. From an economic development standpoint, the 
increased rates would certainly put us at a disadvantage, not 
only to the surrounding communities within Strafford County, 
but really would put the entire Strafford County at a 
disadvantage and encourage business to settle maybe in 
Hillsborough County or Merrimack County where there are less 
stringent regulations that would cause a wastewater----
    Mr. Guinta. Because this is not just affecting Rochester? 
It's affecting----
    Mr. Jean. No. This is a regional impact. And that's why 
we're here today.
    Mr. Guinta. Okay. Thank you very much.
    I yield back the balance.
    Chairman Issa. Thank you.
    We'll do one quick second round, because we do have another 
panel to get to. And I had a couple questions.
    Mr. Rice, you testified that for your first years, 2002 to 
2008, essentially the State Water Quality Standards Advisory 
Committee took one approach as to nutrient from a technical 
advisory standpoint, and then in 2008 there was an abrupt 
change.
    Can you account for what caused, if you will, what science 
supports an abrupt change in how nitrogen is looked at?
    Mr. Rice. I can't justify the abrupt turnaround based on 
science.
    Chairman Issa. But you saw----
    Mr. Rice. Based on policy, I was told by DES personnel that 
they were being directed to come up with a strict nutrient 
limit and that they had to make the numbers work.
    Chairman Issa. So what you saw was a policy change without 
science that led to essentially science being found to support 
a policy decision already made?
    Mr. Rice. Correct.
    Chairman Issa. That's not uncommon. We see that in 
Washington.
    I guess, Mr. Hall, that sort of brings us to that question 
of, these procedures that you're alleging, and I think are 
pretty well documented, these shortcuts that are being taken, 
aren't they in fact the exact fatal flaws that both sides need 
to guard against? In other words, even though it's a long and 
laborious process of comment and inclusion, that, ultimately, 
that's a requirement--whether it's objections from the left or 
objections from the right on any particular issue, in order to 
get to a decision that we all have to live with--if you will, 
that's the due-process guarantee, even if the outcome is not 
always what we wanted?
    Mr. Hall. Well, that's certainly correct, Mr. Chairman. I 
mean, we're not trying to dictate an outcome, but we should 
have our process which then allows us to put in the requisite 
scientific information to show what should or shouldn't be 
occurring, and that--again, it applies to both sides.
    So I agree.
    Chairman Issa. And I guess one follow-up question that I'm 
particularly interested in.
    Isn't it possible that with all the due process, with the 
legislature acting, with science being re-looked at in an open 
and transparent way, isn't it possible you'd lose; that in fact 
we'd end up with less than 8, perhaps as little as 3; that the 
ultimate standard may not be where your particular experts 
found it?
    Mr. Hall. Well, I would offer the following observation.
    Chairman Issa. I was hoping for a yes or no.
    [Laughter.]
    Mr. Hall. Actually, the answer is no. The scientific 
information is so perfectly clear.
    Chairman Issa. In other words, you're comfortable with your 
science. But let me ask it another way.
    The process would at least create the possibility that 
people of good faith would look at the science and reach a 
different decision that might not be exactly the same as yours?
    Mr. Hall. Yes, Mr. Chairman. And, in fact, when we asked 
for the independent peer review, our statement going in--and I 
mean, the coalition's statement--was, ``Get three truly 
independent experts''--and there are top experts in the country 
that know these issues back and forth--``Get three experts. If 
they say we're wrong and we need to do it, we will go figure 
out a way to find the money and get it all done.''
    But if they say it's, like they did the last time, ``It's 
not correct,'' we don't expect another policy decision to foist 
a billion-dollar nutrient-reduction program.
    Chairman Issa. Mr. Rice, you seem to be eager to give an 
answer.
    Mr. Rice. Yeah. Well, it's just for perspective.
    Chairman Issa. And we do this in Washington. We give 
answers where there are no questions.
    [Laughter.]
    Mr. Rice. Well, there's points to be made, right?
    Chairman Issa. Yes.
    Mr. Rice. As the city engineer, I'm responsible to look at 
the data that's available and to make recommendations to the 
decision-makers, our city council, our city manager, based on 
that information. That information needs to be able to support 
the decisions and the investments that the city makes. 
Reviewing this information does not support these significant 
capital outlays.
    Chairman Issa. I guess as the city engineer, if you needed 
to build a one-mile-long road that would accommodate a certain 
amount of traffic per day, and you calculated two lanes, and 
somebody else said, ``But I want four lanes because it looks 
prettier,'' that, ultimately, you'd be looking at, ``Yes, but 
why should we pay twice as much for twice as many lanes unless 
we need them?''
    Mr. Rice. Correct.
    Chairman Issa. And so, in a sense, this is what this really 
is: a decision about what it takes in the way of capacity and 
mitigation in order to achieve a goal that is already specified 
and agreed to by all of you?
    Mr. Rice. Absolutely.
    Chairman Issa. Do all--I know there's four--I keep saying 
four, but I know there's one city that we were not able to get 
a witness on either side available for.
    Would you all agree here--and particularly, Mayor, since 
you bind the city to a great extent--that if the process is 
adhered to, that if EPA does what it's supposed to do, if your 
legislature, if appropriate, does what they are supposed to do 
with the 60-day notice, if that comes through, that, 
ultimately, you would recognize and abide by whatever the 
decision is and whatever the cost is, if the due process is 
properly run through?
    Mr. Jean. That's correct. We'd have no choice.
    Chairman Issa. You'd have no choice, but----
    Mr. Jean. Yes. Yes. Yes, we would, Mr. Chairman.
    Chairman Issa. I guess I'm asking only--you know, for us, 
we'd like--we'd all like to have the best outcome. I would like 
healthcare to cost as much as it does, because I've got to tell 
you, the healthcare debate in Washington would be a lot easier 
if it was half the cost. Ultimately, we wouldn't have a crisis 
in Medicare. If I can't make it half the cost, I at least have 
to arrive at the least waste and fraud that I can, and then pay 
the bill.
    Mr. Jean. Yeah.
    Chairman Issa. That's sort of the situation you're in, is 
that you'd like to protect the citizens of your city by getting 
them the most accurate and least expensive but effective 
decision with a legitimate due process?
    Mr. Jean. That's correct.
    Chairman Issa. Well, that's, to a great extent, what 
Congress has an obligation to do with all the federal agencies. 
And I will tell you that's my goal when I leave here today is 
to ensure not that your particular solution win, but that the 
process be adhered to so that ultimately the best solution, at 
the lowest cost possible, be achieved.
    Thank you.
    Mr. Guinta.
    Mr. Guinta. Thank you, Mr. Chairman.
    Mr. Rice, you're here on behalf of the City of Portsmouth. 
Can you tell me what if any votes the City of Portsmouth took 
relative to this particular issue or the Adaptive Management 
Plan?
    Mr. Rice. I will, and I can. But if I misspeak, my 
assistant city attorney is here to let me know I'm----
    Mr. Guinta. Sure. To set you straight.
    Mr. Rice. Yeah, to set me straight.
    Chairman Issa. So we've got an engineer and an attorney. 
What a combination.
    [Laughter.]
    Mr. Rice. Yeah. It's a bad combo.
    It's my belief that the city council did vote for the 
adaptive management approach, and we did budget monies that 
were passed to move forward with that approach in this year's 
budget.
    Mr. Guinta. Can you----
    Mr. Rice. And then the other question you had was--for 
the--well, the other votes that they've been taking is, the 
city is voting and committed to moving forward to build a 
treatment plant we're upgrading a treatment plant, to build 
that treatment plant to 8 milligrams per liter, with the 
ability to treat to 8. So that's another vote that was taken.
    Mr. Guinta. So, just to sort of put this in perspective, 
right now we're talking about anywhere--of a discharge from 20 
to 30 milliliters; correct? I mean, currently, the current 
discharge?
    Mr. Rice. Right. Currently we're around 20.
    Mr. Guinta. And different communities are at different 
levels, but it's roughly 20 to 30 based on the communities.
    So you're at 20; Rochester could go as high as 30 in 
certain years. But that's where we are today?
    Mr. Rice. Yeah.
    Mr. Guinta. The EPA requirement is to get to 3, and the 
coalition communities would like to get--the goal is to get to 
8?
    Mr. Rice. As the first step, correct. And, obviously, what 
we would do is, we would build and measure. You know, the idea 
is, if it didn't have the results we were hoping for, you know, 
is it the right step and do we need to do anything beyond that?
    Mr. Guinta. So you don't object to having a plan; you don't 
object to ensuring that Great Bay is clean; you don't object to 
reducing nitrogen. What you're objecting to, it sounds like, is 
the mandate to immediately get to 3?
    Mr. Rice. We don't feel the science supports going to 3.
    Mr. Guinta. Okay. And you have offered to the EPA--have you 
offered to the EPA----
    Mr. Rice. Yes.
    Mr. Guinta.--your alternative?
    Mr. Rice. Yes.
    Mr. Guinta. And what response have you gotten from the EPA?
    Mr. Rice. The request, I think, went through the DES 
originally, in a letter to the EPA; and the EPA responded that 
it was not adequate, that you had to go to limits of 
technology.
    Mr. Guinta. Okay. Can you talk to me a little bit about 
what you identified in your testimony in regards to your 
attendance to a Washington event, a Water Environment 
Federation EPA staff briefing on March 15, 2010? You talked 
about it a little bit. Can you talk a little more in depth 
about what you were told?
    Mr. Rice. Yeah. I mean, there was a briefing through our 
New Hampshire Water Pollution Control Association, the New 
England water environment group. We went down--we go down 
annually to get updates and have a chance to chat with our 
representation down there, to bring up concerns and get 
information.
    At a staff EPA briefing to our organization, they were 
talking about the Chesapeake Bay, and they talked about other 
estuaries and that they were taking this approach and expanding 
it nationally. And I pointed out that there were site-specific 
differences with each estuary and it appears to be a one-size-
fits-all, and, you know, why would you do that? You know, our 
Bay is different than elsewhere.
    And they said--and the response was, ``You know, we don't 
have the time or money. We're moving forward. And, you know, 
that's just the way it is, and you just have to accept it.''
    Mr. Guinta. So they don't have the time or money to do the 
proper----
    Mr. Rice. But we do.
    Mr. Guinta. Exactly.
    And, Mr. Hall, you did actually mention in some of your 
comments that there are geographic differences nationally on 
what would produce the transparency issues or the discoloration 
of different water bodies?
    Mr. Hall. That's correct. Actually, if Chesapeake Bay had 
the algal level that you have in Great Bay, they would be doing 
handstands. It is that low. The nutrients----
    Mr. Guinta. Compared to Chesapeake?
    Mr. Hall. Compared to the Chesapeake. And it's because----
    Chairman Issa. It's nice to be colder.
    Mr. Hall. Colder, and more importantly, I don't know--if 
you get a chance to go eat some seafood down at Portsmouth 
Harbor----
    Chairman Issa. My staff has contributed considerably to the 
economy in the last two days.
    [Laughter.]
    Mr. Rice. We appreciate that.
    Mr. Hall. Ask them to watch the tidal exchange. It is 
impressive, the amount of water that comes rushing through 
every day. The detention time, which is a critical controlling 
factor in any nutrient growth in a bay, is, I think about 13 to 
18 days in Great Bay. In Chesapeake Bay it's like nine, ten, 
twelve months.
    So the amount of difference that you can have in algal 
growth is huge in Chesapeake. In Great Bay, you can put 
nitrogen in and it actually doesn't affect the algal growth, 
which is exactly what the data showed.
    What we were astounded with--about--was, after the EPA 
looked at the data, EPA looked at the data and they were shown 
that the nitrogen went up--the algae did not change--they still 
kept claiming that nitrogen caused more algae and caused worse 
transparency. The data confirmed it never happened.
    So, yes, there are major differences in this system 
compared to others. And I might note that your Technical 
Advisory Committee from 2007 concluded you shouldn't use the 
data from other estuaries, because this one is so different. 
And I don't know where that recommendation went, but it 
certainly got ignored in the end process.
    Mr. Guinta. Mr. Chairman, may I have one additional minute?
    Chairman Issa. Of course.
    Mr. Guinta. Okay. Thank you.
    Mr. Hall, we are going to hear in the second panel from the 
EPA, specifically Mr. Spalding, and I suspect what he, to make 
the points for the EPA, will talk a little bit about the PREP, 
the Piscataqua Region Estuaries Partnership, and that report 
from 2009 and how it justifies the proposed standards by EPA.
    Can you talk a little bit about, from your perspective, 
what PREP states, what that document states?
    Mr. Hall. Sure.
    Mr. Guinta. And maybe if you have any concerns or if there 
are also any legitimate points you want to make about that 
document.
    Mr. Hall. I think the simplest analogy would be the 
following.
    Suppose you went into a doctor and said, ``I'm having 
shortness of breath.'' And the doctor said, ``Well, you know, 
this could be anything from indigestion to you may need bypass 
surgery. You know what we need to do? We need to run some very 
specific tests to figure out what the right diagnosis should 
be.''
    The doctor runs those tests; concludes, in fact, it was 
indigestion.
    You go back to meet the doctor again, and then the doctor 
tells you----
    Chairman Issa. ``Time for a heart transplant.''
    Mr. Hall. ``It's time for a heart transplant, because I 
have an opening on my schedule next week, and I needed to fit 
somebody in.''
    That is what happened with the 2009 criteria document. They 
did the specific studies. When it confirmed that the specific 
results or conclusions were, transparency was not affected in 
the way they thought, they then switched to a simplified 
diagnosis, plotted data in a way--and, by the way, my 
background is in mathematics and I also have degrees of 
environmental engineering. If I had handed this assessment in a 
master's program as a basis for calculating a nutrient limit, I 
would have gotten an F. The EPA Science Advisory Board 
specifically said you can't use these kind of simplified 
methods to predict complex nutrient criteria.
    Okay. We brought that to EPA's attention. Now, that SAB 
report happened, oh, about six months after the State finished 
their report. So we thought, well, we'll bring this forward. 
Obviously, they've make a mistake and they'll just fix it.
    But, no. Since that date, the Science Advisory Board 
position that you can't do these kind of analyses was ignored, 
as was the specific diagnosis that this wasn't a transparency 
issue.
    So, yeah, we've got a few problems with the 2009 documents, 
and that's why we've been asking for an independent scientific 
review from day one, because I cannot imagine any credible set 
of knowledgeable scientists looking at the evaluation and 
saying anything else other than ``You need to change that.''
    Mr. Guinta. Thank you, Mr. Chairman.
    Chairman Issa. Thank you.
    I'm going to just follow up, because there was one thing 
that I didn't get in the last round.
    One of you talked about the 1997 water treatment plant, 
which gets you only to 30 milligrams per liter; right? 
Currently.
    Mr. Jean. Yes. Yes.
    Chairman Issa. So in 1997, in the Year of Our Lord 1997, 
way back then, 30 was good enough.
    As an engineer, how long has 3 been technically possible? 
How long has 8 milligrams per liter cost what it costs now in 
your study? Is this a science where every year, if you--you 
know, a little bit like trying to have the greatest computer. 
The greatest computer 25 years ago, for millions of dollars, I 
have in my pocket behind me--it's an iPad--you know, in my 
briefcase. But a $20 million computer in the '70s was not as 
powerful as an iPad, nor did it have as much memory.
    How is the science going relative to being able to make 
those kinds of removals, if 3 is technically possible but 
expensive today, 8 is cheaper, and in 1997 you were at 30? Has 
it progressed that quickly?
    Mr. Rice. There have been improvements in the science and 
the understanding of these systems. The big difference between 
a computer and a biological system--a wastewater system is a 
natural biological system. We take what naturally occurs in the 
river and we condense it down into a treatment plant, so we get 
more bang for the space available.
    Chairman Issa. Right. But, for example, reverse osmosis is 
in the order of 10 times less costly to do water purification 
in that system than it was a few decades ago.
    Mr. Rice. Sure.
    Chairman Issa. My reason for asking is, if in fact the EPA 
were to arrive at a decision that 8 looked good enough today, 
10 years from now, 15 years from now, just as 15 years ago, if 
they come back and there's a reason to go to 4, is it likely to 
cost less or more because of technology breakthroughs?
    Mr. Rice. It really depends on a number of different 
things. The operation costs of these technologies are not 
insignificant. Reverse osmosis is energy-intensive. A lot of 
these low-limit biological systems require additional 
chemicals, methanol, which is dependent upon energy prices. So 
it may be cheaper on a----
    Chairman Issa. The last time I checked, you don't have a 
lot of natural gas coming into New England yet.
    Mr. Rice. No. Right.
    But if you look at in a capital cost, it may be cheaper in 
terms of the capital, but the operation and maintenance costs 
will offset the cost.
    So, you know, it's crystal ball to a certain extent. Our 
understanding of the biology and how the bacteria work has 
significantly improved, and we're doing the best--you know, 
we're really milking a lot out of what they do naturally. But 
when you start adding chemicals----
    Chairman Issa. I guess let's leave the dollars out for a 
moment.
    Could you have gotten to 3 milligrams per liter with the 
existing science in 1997?
    Mr. Hall. Not easily.
    Mr. Rice. Probably not easily. I mean, even today, 3 is a 
seasonal type thing. During colder temperatures, it's going to 
challenging to meet the 3, if not--if not----
    Chairman Issa. So it's a developing standard. It's also a 
developing technology. And finding the right mix today doesn't 
preclude the fact that you could do potentially better, even 
for a small difference, and do it a few years from now?
    Mr. Rice. Absolutely. And that is really why we say this 
build-and-measure approach doesn't preclude doing better things 
in the future. However, going to 3 today does preclude, because 
it takes away resources.
    And you had asked the mayor, you know, what type of impacts 
this could be having, negative other than just financial. The 
unintended consequence of raising sewer rates in all the 
sewered communities will drive development into the non-sewered 
areas. And as we've seen, non-sewered areas are really the 
source--the runoff is really the source of the problems. And, 
granted, some of the cities have runoff problems, but you'd be 
expanding sprawl and moving more runoff issues out of the 
sewered areas.
    Chairman Issa. And that is one of the interesting 
challenges, is that when your project is complete at 3 or 8 or 
whatever level, I'm sure the vast majority of the State will 
still be and its residents will be at a level higher; thus, 
you'll be the good actor, but some of that waste will still be 
going into the same estuary.
    Mr. Rice. Correct.
    Chairman Issa. Okay. Well, I want to thank you all for your 
multi-panel answers. If you possibly can remain for the next 
panel, we'd appreciate it. If you have comments or additional 
items that occur as a result of Mr. Spalding's testimony, 
please understand we're going to leave the record open for five 
days for your additional comments, in addition to outside 
organizations.
    So thank you. And if we could reset for the next panel.
    [Recess.]
    Chairman Issa. This hearing will come back to order.
    We are now joined by Mr. Curtis, or Curt, Spalding. He is 
the administrator of the Environmental Protection Agency's New 
York--I'm sorry--New England Region.
    And pursuant to the committee rules, if you also would rise 
to take the oath.
    [Witness sworn.]
    Chairman Issa. Let the record indicate the witness answered 
in the affirmative.
    Just as at the last panel, although you do probably have a 
prepared statement that's been approved, try to limit it as 
close as you can to five minutes, summarize, or skip over a 
little bit. Your entire statement is going to be placed as a 
matter of record.
    Mr. Spalding. I will.
    Chairman Issa. With that, you're recognized.

            STATEMENT OF H. CURTIS ``CURT'' SPALDING

    Mr. Spalding. Thank you.
    Well, thank you, Mr. Chairman. My name is Curt Spalding. 
I'm the administrator of EPA's New England Region. I appreciate 
the opportunity to describe the agency's approaches to the 
challenges facing Great Bay.
    I think we all start from a common understanding. The Great 
Bay estuaries are a real treasure. I've been on the water there 
with scientists and state officials, and it's easy to see what 
all who live in the Seacoast Region already know: Great Bay is 
a real jewel. It is one of only 28 estuaries in the nation to 
be included in the Clean Water Act's National Estuaries 
Program. And thanks to the Piscataqua Region Estuaries 
Partnership--or PREP, as was referred to earlier--and many 
other scientific experts, the estuary has been studied 
extensively for many years. And also, thanks to the stewardship 
of Senator Gregg, the Federal Government has made significant 
investments in research and land conservation in this 
watershed.
    Another point of agreement is that Great Bay is in serious 
decline. In the 19--in the 2009 PREP study that was referred 
to, the State of the Estuaries Report showing environmental 
quality of the estuary was indeed declining. Of the 12 
indicators measured, 11 showed negative or cautionary trends. 
The most pressing problems include discharges from sewage 
treatment plants, increased stormwater runoff, and non-point 
source pollution. With mounting evidence of serious decline 
across the watershed in 2009, the New Hampshire Department of 
Environmental Services designated Great Bay waters as impaired 
for failure to meet applicable water quality standards.
    The panel before me discussed in detail the scientific 
uncertainty. What you haven't heard about is the actual weight 
of evidence. When EPA weighs all the lines of evidence, 
particularly in the tributary waters where most of the 
treatment plants discharge, we conclude that there is an 
abundant evidence of impairment. In New Hampshire, unlike most 
states, EPA is the Clean Water Act permitting authority. That 
makes it our responsibility to ensure discharges of pollutants 
to Great Bay do not cause or contribute to violations of water 
quality standards. The discharge of nitrogen to Great Bay and 
its tributaries comes from a variety of sources, including 18 
sewage treatment plants in New Hampshire and Maine that 
discharge close to 20 million gallons a day of wastewater, with 
little or no removal of nitrogen. Beginning to control this 
resource of nitrogen represents the single-most cost-effective 
and predictable step that could be taken towards meeting water 
quality standards. Sources other than the sewage treatment 
plants are also important to Great Bay's nutrient problem, and 
we will continue to take steps to address these sectors, 
including the development of a general permit to address 
stormwater discharges.
    EPA's initial focus has been on the small number of 
facilities that discharge the bulk of the nitrogen load coming 
from sewage treatment plants. The plants in Exeter, Newmarket, 
Dover, and Rochester account for over 80 percent of the 
nitrogen released to the Great Bay from treatment plants.
    And as true in every permit we issue, EPA has provided an 
analysis for the public to examine and critique. In Exeter, 
Newmarket, and Dover, we've have lengthy public comment periods 
and heard from proponents and opponents of the proposed 
nutrient limits. We will document our responses to all comments 
received and provide a detailed record of our decisions. I 
anticipate we will make decisions on the permits later this 
summer.
    We are very sensitive to the fact that it will take 
significant public investments to clean up Great Bay. We 
recognize significant economic impacts facing municipalities 
for treatment plant upgrades, stormwater requirements, and 
other municipal needs. We are more than willing to work with 
communities on implementation schedules designed to minimize 
the impact to ratepayers. You've heard the coalition propose 
that EPA take an adaptive management approach to control 
nitrogen in the estuary that would allow treatment plans to be 
upgraded on phased schedules. These are the discussions we're 
having with Newmarket and Exeter now.
    For 18 years prior to my current position, I was executive 
director of Save the Bay in Rhode Island. I witnessed the 
nearly complete crash of Narragansett Bay to nitrogen pollution 
problems, and we struggled to find solutions, just as the 
struggle is starting here.
    I know how hard it is to build a consensus to make the 
investments in public infrastructure necessary to begin the 
very long path towards restoring Great Bay. There is still 
time, but probably not much time, to arrest the decline in 
Great Bay before it bottoms out. The longer we wait, the harder 
and more expensive the path back. EPA stands willing to work 
with each community to find an affordable path to restoring the 
treasure that is Great Bay.
    I thank you for the opportunity to testify today. I'm happy 
to take your questions.
    [Prepared statement of Mr. Spalding follows:]

    [GRAPHIC] [TIFF OMITTED] T5303.019
    
    [GRAPHIC] [TIFF OMITTED] T5303.020
    
    [GRAPHIC] [TIFF OMITTED] T5303.021
    
    [GRAPHIC] [TIFF OMITTED] T5303.022
    
    [GRAPHIC] [TIFF OMITTED] T5303.023
    
    Chairman Issa. Thank you.
    Mr. Spalding, from your CV, your previous employment, what 
was the discharge typical in Rhode Island in parts per 
mililiter, or million?
    Mr. Spalding. Million?
    Chairman Issa. Million, yes.
    Mr. Spalding. Well, the discharges are essentially 
uncontrolled.
    Chairman Issa. So they were hundreds or thousands per?
    Mr. Spalding. The total----
    Chairman Issa. In other words, where we're trying to 
achieve 3 or 8----
    Mr. Spalding. Right.
    Chairman Issa.--and we're presently at 20 or 30----
    Mr. Spalding. Yes.
    Chairman Issa. A decade or two ago, uncontrolled could be 
10 or 20 times that?
    Mr. Spalding. Well, 40, 50 is not uncommon. I mean, that's 
basically a fully functional secondary wastewater plant.
    Chairman Issa. Plus whatever is running off people's lawns?
    Mr. Spalding. Plus what's running off people's lawns, the 
non-point runoff.
    The Bay I was charged with trying to restore was----
    Chairman Issa. And what did you achieve--what did the water 
discharge turn into, at least from the sewage plants? What was 
it when you left?
    Mr. Spalding. Well, there's a set of controls now being 
implemented on nitrogen.
    Chairman Issa. No. What was it when you left? 18 years ago, 
what had they, quote, gotten it to?
    Mr. Spalding. On nitrogen?
    Chairman Issa. Yes, sir.
    Mr. Spalding. On nitrogen. They're still not controlled. So 
at this point, the bay still deals with----
    Chairman Issa. So in Rhode Island, they just put as much 
crap down as they want?
    Mr. Spalding. No, they do not. They now have controls 
coming online in their wastewater plants----
    Chairman Issa. Okay. But I asked you specifically, 
because----
    Mr. Spalding.--and permits in place.
    Chairman Issa. I want to try to understand, because the 
people who are here want to be as clean as necessary.
    Mr. Spalding. Right.
    Chairman Issa. And they also want to be comparatively 
taxed, so to speak, along with the rest of the country.
    Mr. Spalding. Right.
    Chairman Issa. So, using Rhode Island, you're telling me it 
wasn't 20 or 30 per, or certainly 8 or certainly 3 when you 
left, and it isn't today?
    Mr. Spalding. There are permit limits in most of the Upper 
Bay Rhode Island plants today.
    Chairman Issa. That are higher than being proposed here?
    Mr. Spalding. There is a limit of 5 in Providence, a limit 
of 3 in Woonsocket, a limit of 5 in East Providence.
    Chairman Issa. Okay.
    Mr. Spalding. So these limits are very much in the ballpark 
of what's being proposed here.
    Chairman Issa. Well, let's talk about the 5 versus 3. This 
came out of the earlier panel. Environmental groups like the 
Conservation Law Foundation, or CLF, have pressed the EPA for 
stricter nitrogen limits in the estuary. Internal EPA Region 1 
e-mail correspondence obtained through FOIA reveals the EPA 
considered a 5-milligrams-per-liter nitrogen limit, with CLF, 
basically an environmental group--not a neutral, just as your 
previous group was not a neutral--apparently in this e-mail did 
not agree.
    Are you familiar with this e-mail that was delivered by----
    Mr. Spalding. I'm not, but I'm familiar with the point that 
proponents send e-mails and make input.
    Chairman Issa. Well, do you know Stephen Sylva?
    Mr. Spalding. I do know Steve Sylva, yes.
    Chairman Issa. And do you know Carl Deloy?
    Mr. Spalding. I do know Carl Deloy, yes. Both work for me.
    Chairman Issa. Okay. So they're having a discussion about 
what the standards should be to not get sued; right?
    Mr. Spalding. Yeah.
    Chairman Issa. So not getting sued is one of your 
considerations for setting a standard?
    Mr. Spalding. A standard is that the permit needs to be 
legal. We get sued on both sides quite frequently. It's a 
consideration, but not a determination.
    Chairman Issa. But you wouldn't be having these kinds of e-
mail discussions if it wasn't trying to get groups to agree 
that if you meet their standard--their standard you won't get 
sued. That's what this e-mail shows. It isn't referring to 
defendable science, a particular study, norms in other areas. 
It's talking about getting sued.
    Mr. Spalding. I think it's important to note that the 
permit is still under consideration. There's been no final 
determination. This is a back-and-forth communication. We again 
have not made a final call whether it's 3 or 5 or any other 
number. We propose 3 at this point.
    Chairman Issa. Okay. But is this really boiling down to the 
story of the pound of ground beef, and the way you determine a 
pound is, the butcher has got his thumb on the top and he is 
pushing down as hard as he can, and the purchaser has to put 
his or her thumb on the bottom and push equally hard to get a 
fair one pound of beef? Is it really about who can sue to get 
the middle ground?
    Mr. Spalding. No. No, it's not.
    Chairman Issa. It certainly looks that way from this e-
mail.
    Mr. Spalding. The determination by all involved, looking at 
the weight of evidence, was that 3 was the standard we should 
propose in the draft.
    Chairman Issa. Well, isn't 3, though, the limit of 
technology? Isn't that it, essentially, you couldn't propose 2, 
because you couldn't mandate it based on achievable standards?
    Mr. Spalding. 3, in combination with other factors of non-
point and stormwater control, as we all discussed, or as was 
discussed earlier, the problem in the watershed and the equity, 
we believe if these plants do achieve 3 in the future and other 
actions are taken, you could meet the water quality standard.
    Chairman Issa. So if they're at 30 and they're willing to 
go to 8 in a matter of just a few years, why is that not a 
dramatic improvement where you can make the change, and if I 
understand correctly from the earlier testimony, in a matter of 
days, a matter of days after you reach that level of output, 
you reach that level in the estuary, and then, over a season, 
you see the effected change? In other words, isn't it a few 
days to lower the level, and then essentially a season or two 
in order to see the effect?
    Mr. Spalding. I wish it was that simple. No.
    If they go to 8--and, in fact, we've had conversations with 
Exeter and Newmarket about a phased approach that would bring 
them to 8 and then, in years follow, go to the next level. So, 
in fact, what I was interested in hearing was basic agreement 
on the phased approach and adaptive management.
    If you go to 8, you'll start to see improvement, yes. 
There's a lot--in these systems, the nitrogen tends to be in 
the system. It takes some time for it to work its way through.
    Chairman Issa. You know I'm a native of Cleveland, even 
though I represent California.
    Mr. Spalding. Yes. Yes.
    Chairman Issa. I remember when the Great Lakes were dead.
    Mr. Spalding. Yes.
    Chairman Issa. And they found out they weren't lakes; they 
were rivers.
    Mr. Spalding. Right.
    Chairman Issa. Because it took a very short period of time, 
after we quit putting chromate and all these other terrible 
metals in, for it to flush out.
    Mr. Spalding. Yes.
    Chairman Issa. Now, in the soils deep beneath Lake Superior 
and Lake Erie, I'm sure you can still measure some levels that 
were left over from decades and decades ago.
    Mr. Spalding. Right.
    Chairman Issa. But it sounds like this is an area in which 
you get a fairly quick change.
    And I guess my question is, a phased approach, why wouldn't 
you, if you will, look for something that is a threefold 
reduction, or however, you want to talk about going from 20 to 
30 down to 8? Let's just call it an average of 24 down to an 
average of 8. Why wouldn't you take that and then measure it, 
and recognize that there's no bargain?
    And I'm not trying to----
    Mr. Spalding. No, I understand.
    Chairman Issa.--pledge a position. I'm trying to----
    Mr. Spalding. I understand what you're saying.
    Chairman Issa. Why wouldn't you say, ``Look. We don't have 
a bargain. We have a point that we agree to go to and then 
measure.'' Why wouldn't be that the first 5 to 10? Recognizing 
that even though there would be a substantial investment, 
everybody understands, as I asked the mayor on the first panel, 
if it doesn't get the job done and science says you have to go 
further, then, in fact, there's another round and another round 
of expense, but you've essentially probably saved a couple 
hundred million over that 6-, 7-, 8-year period that ultimately 
you're going to use to make the next round of investment if you 
need to.
    Mr. Spalding. Yeah. Yeah. It's interesting you bring up the 
phased approach, because, indeed, what you've just described is 
a lot of what we've been talking about with Exeter. The only 
difference is, to make a permit based on the science we see 
today--and there's been a lot of conversation about science 
from their consultant, but what we see in the science----
    Chairman Issa. And if you noticed, when they were telling 
me how confident they were, I said ``What if?''
    Mr. Spalding. Yes.
    Chairman Issa. Because we're always confident in our 
science, and the other side is always confident.
    Mr. Spalding. Absolutely.
    Chairman Issa. I've been in trials and both sides have 
experts that absolutely agree with them and disagree with each 
other.
    Mr. Spalding. Absolutely, sure. And we have a process for 
arbitrating that through our Environmental Appeals Board.
    But the fact is, writing a permit today, we think 3 is 
what's required; but in discussions about a compliance 
schedule, we've talked about several years doing exactly what 
you talked about: Let's put 8 in, let's look at how it's 
achieving, and then we would look at the science at that time, 
with the idea that we all need to know how this resource is 
responding, the issue you just raised.
    Chairman Issa. So let me try to feed back your words, 
because I think they're very important today. Because there may 
be some misunderstanding of your goal, your likely rule, and, 
in fact, what people understand.
    Mr. Spalding. Right.
    Chairman Issa. If in fact their study happens to be right, 
and yet your belief is the one that ultimately is written on 
the permit, do we have a situation in which you go to their 8; 
you measure it. If they appear to be right in hindsight, you 
don't go to 3 even though you still believe that you should go 
to 3, but you see that they've achieved?
    Mr. Spalding. Well, we have----
    Chairman Issa. Or is this one of the things where they're 
guaranteed to have to go to 3 and it's just a question of when?
    Mr. Spalding. There are probably two permit cycles in play 
before--again, talking about the compliance schedule that was 
being discussed--where we could reconsider that 3 if their 
science proves right, if other science proves right, or if 
somebody--and you talked to Peter about the innovation that 
might be out there, and believe it or not, there is a lot of 
innovation around this water issue.
    Chairman Issa. I suspected there was, although I didn't get 
the answer I hoped for.
    Mr. Spalding. No, there's a lot of innovation. The State of 
Massachusetts just launched a very significant effort that way.
    But the point is, yes, there is opportunity for 
reevaluation in the compliance schedule we discussed--I've been 
discussing with Exeter and Newmarket.
    Chairman Issa. Well, I'm not envisioning a second round, 
but as you saw in the last round, things come to me.
    Mr. Spalding. Yes.
    Chairman Issa. But Mr. Guinta has prepared very much for 
this. I'll recognize the gentleman.
    Mr. Guinta. Thank you, Mr. Chairman.
    Thank you, Mr. Spalding, for working with me personally and 
my office and the communities in trying to find what I hope is 
a reasonable resolution. We've talked about this over the 
course of the last year, and I want to try to get as much 
information from this hearing to the public. I want to continue 
to digest some additional information that I've heard, as you 
know that I have filed legislation to try to find a middle 
ground in getting to 8 as opposed to 3.
    But some of the testimony I heard from the first panel did 
concern me, because it does seem as though some of the 
communities--I won't say all, but maybe some feel their voices 
aren't being heard as much as maybe you would like or you feel 
they're being heard. And you were in the audience; you heard 
some of the testimony, particularly from Mr. Rice, on that 
subject matter.
    Can you maybe talk a little bit about that? Because I 
suspect that there is maybe a difference of opinion that you 
have, or a different approach that you have as the regional 
director versus the EPA. I mean, I've gotten the sense over the 
years that you want to try to find common ground, and I 
appreciate that. But it does seem from some of the testimony 
that that's not the opinion or it's not what the contiguous 
communities have been feeling.
    So can you just talk about that a little bit? And then I'll 
get into more specific questions.
    Mr. Spalding. Well, you make a good point. I took the 
position or came in 2009, and this was well underway before I 
got here. And we have been trying to open up paths of dialogue. 
I've had regional staff in these communities, especially Exeter 
and Newmarket, the first two permits, many hours of dialogue 
with those communities on thinking about a compliance schedule 
that would phase the approach and include this adaptive 
management that they have proposed.
    So we have been--and that was something I discussed in 
depth with my staff: the need to get with the communities and 
do that. And that's what I used to do running an NGO in Rhode 
Island, have those kind of discussions. And, indeed, 3, 5, 
other limits were put in without appeals in those--in that 
place in Rhode Island.
    So, yes, I think the need for dialogue is incredibly 
important, because things will change, new technology will come 
forth. Will the population in these towns continue to grow? The 
real reason this is happening is population growth in this 
region. So we need to continue to do that.
    Mr. Guinta. On that, are you concerned at all about the 
point that Mr. Rice brought up toward the end of his testimony, 
about sprawl? I mean, fixing, from the EPA's perspective, one 
problem and almost creating another?
    Mr. Spalding. Yes. The idea that the costs in the cities 
would go up and the people would go elsewhere.
    Mr. Guinta. Is that a legitimate issue?
    Mr. Spalding. It is a legitimate issue. I think the 
chairman pointed out that a solution for this region needs to 
include all the communities.
    One thing that's very important----
    Mr. Guinta. When you say ``all,'' what do you mean?
    Mr. Spalding. All the communities that are in the Great Bay 
Estuary watershed, that may be making an impact. So if you 
have, for example----
    Mr. Guinta. So does that go as far west as Candia, New 
Hampshire?
    Mr. Spalding. It can. I mean, there needs to be a 
conversation about that. Those with septic systems and 
individual systems need to be brought into this. And you might 
find, as you go up these rivers, that some folks, their septic 
system may not be working so well anymore. And those problems 
need to be addressed. What's coming off of farms and lawns 
needs to be addressed.
    We are very eager to see a whole watershed solution found. 
Unfortunately, we don't have that authority, that state and 
local authority. So they need to put that program together. If 
that program comes together and it shows real progress, there 
could be a reconsideration of everything we've talked about 
here.
    Mr. Guinta. Well, staying on that point for a minute, it 
seems like the first panel--and I think you would agree, but I 
don't want to put words in your mouth, so tell me if I'm 
wrong--but it seems like there's general understanding that 
roughly 70 percent of the nitrogen in the estuary does not come 
from wastewater treatment plant.
    Mr. Spalding. That's right.
    Mr. Guinta. So you've alluded to that.
    Mr. Spalding. There's no disagreement there.
    Mr. Guinta. Okay. So should I be concerned with what the 
communities are bringing to me in terms of their financial 
concern? If wastewater treatment plant is 30 percent or 28 
percent of the problem, why is the first phase of modifying or 
improving this being such a significant financial impact, you 
know, greater than the 30 percent that maybe they feel they're 
responsible for?
    Because I have to say, I'm hearing from the communities, 
from day one, they want to fix this problem. They don't want to 
be in a fight with the EPA. They've encouraged me and asked me 
to be in this process to try to find that common ground 
solution. And that's the role that I've tried to play from day 
one, and that's the role I want to continue to play.
    Mr. Spalding. Well, you should be concerned, like I'm 
concerned. We both should be concerned about impact to 
ratepayers and how this goes in place, and it needs to be 
phased. We're working with communities with limits all over--
and I mean financial limits all over New England, places like 
Holyoke and Fitchburg and other places with income levels far 
below these communities. And we work very hard to phase the 
work so it does not create undue burden.
    But the other thing you point out is, that I think is very 
important, is should the burden be borne by just these 
communities? In other states in my region, states put forth 
some bond-issue support and other things. There used to be a 
grant program that was funded here. I think that's the case in 
most states. They provide some help for a resource that's a 
state asset like this.
    I do regret, I think like we all do, that the Federal 
Government can't do more in terms of granting and that sort of 
thing. But, all said, I think we all need to be concerned. 
Nobody wants to put a community at an unfair disadvantage.
    Mr. Guinta. Two final points I'd like to make, if I could.
    Chairman Issa. Of course.
    Mr. Guinta. So, on that note, the Clean Water Act does 
allow for state legislatures to engage in these particular 
issues. The first panel, I think it's been identified that the 
state legislature has not.
    Mr. Spalding. Yes.
    Mr. Guinta. So, to your point about a greater area, 
shouldn't the legislature be more engaged, number one? And, 
number two, if the upwards of--you know, it could be 75 
million, could be 164 million, could be 250 million, depending 
on the requirement of the 3 for the contiguous communities--I 
mean, we probably differ in the cost, but they're telling me 
anywhere from 160 to 250. You know, long term it could be a 
billion when you include the other communities. Why wouldn't 
the--why wouldn't the Adaptive Management Plan of 8 be 
sufficient?
    I keep hearing--I hear you say that you want to work with 
them, but it sounds like you're saying at the end of the day, 
you are saying they have to get to 3.
    Mr. Spalding. What I'm saying is two things.
    Mr. Guinta. So there's two points there.
    Mr. Spalding. Two things. Looking at the science today, the 
decline we see in the habitat health of the Great Bay Estuary 
today, we have proposed 3 milligrams per liter as ultimately 
necessary to see the Great Bay and its estuaries recover. That 
said----
    Mr. Guinta. However, you've also said that it could change 
over time.
    Mr. Spalding. That said, we have discussed with the 
communities a compliance schedule that does a phasing approach 
using the adaptive management approach; that if other means are 
found to get that nitrogen reduction that all feel is necessary 
done, that 3 could get reconsidered. We have two, at least two, 
more permit cycles.
    One thing that is unfortunate----
    Chairman Issa. When you say ``permit cycles,'' how long are 
they?
    Mr. Spalding. They are five years, and these permits are 
overdue. It's one of the issues that is not a good thing, that 
your permits are overdue. I guess it makes us vulnerable to 60-
day notices anytime.
    Mr. Guinta. No, I know. But--so the 3--and the chairman was 
trying to make this point, and I think it's important for the 
record.
    Mr. Spalding. Right.
    Mr. Guinta. Because a lot of people in New Hampshire feel 
very, very strongly about Great Bay. Some want it cleaned up, 
you know, quicker than others. Some people are more concerned 
about the financial component.
    Mr. Spalding. Right.
    Mr. Guinta. But I think most people would agree we have to 
get it cleaned up.
    Getting to that requirement of 3, the e-mail exchange 
between two EPA employer----
    Mr. Spalding. Yes.
    Mr. Guinta. Excuse me, employees, does concern me. I mean, 
tell me if I should not be concerned.
    When two EPA employees specifically state that either 5 mg 
per liter, with CLF's agreement not to appeal, or 3--that's 
what concerns me. What is driving, you know, this standard? Is 
it an agreement with CLF not to sue? Or is it what people in my 
state and these contiguous communities ultimately want to try 
to come to an agreement with, that it's in the best interest of 
their community?
    Mr. Spalding. Well, I think what you're seeing here is, we 
do look at legal risk related to permits from all sides. 
Obviously, we're concerned about the communities and their 
appeals, potentially. That's why we've been meeting with them 
at length. And then we need to be concerned about appeals from 
the other side.
    Mr. Guinta. So you also meet with CLF?
    Mr. Spalding. We from time to time meet with CLF. Not 
specifically on a permit like we would with a community.
    Mr. Guinta. Have you met with CLF on this?
    Mr. Spalding. I have not.
    Mr. Guinta. Have any EPA employees?
    Mr. Spalding. I'd have to check with staff. I don't think 
they have had a specific conversation about this. I think 
they've expected CLF to participate like everyone else, through 
the public comment period.
    Mr. Guinta. Could you within the five-day period after 
today's hearing include an answer to that question?
    Mr. Spalding. I'll ascertain that. Absolutely. Absolutely.
    Mr. Guinta. Well, my time has expired. I appreciate the 
chairman's willingness to yield, and I yield back.
    Chairman Issa. Well, you gave us this hearing, so if you 
need more time, you certainly can have it.
    As I promised, there will be something else.
    Mr. Spalding. Good.
    Chairman Issa. I've worked in engineering for most of my 
career, but I'm a trained businessman. And so, thinking about 
Sister Peggy's accounting class in college, if I did my math 
right, if we went from 30 parts to 3 parts, but we're only 
affecting 30 percent of the discharge and the other 70 percent 
remains where it is, my arithmetic says that whatever level of 
discharge you have today, even after they go down by tenfold in 
some cases, you're still going to have 76 percent as much 
flowing into the estuary as you have today. Isn't that roughly 
right?
    Mr. Spalding. I think you're definitely right, knowing your 
skills.
    Chairman Issa. So as we're trying to balance what share is 
borne by five communities and what is necessary to clean this 
up, if I read correctly, basically you're going to get 70 
percent as much pollution if all five communities just ship 
their water to Tacoma, Washington.
    So one of our problems here is, at 70 percent the amount of 
phosphates and nitrogen going into the water, you may still not 
have a clean estuary. Isn't that true?
    Mr. Spalding. Yeah. If no other action is taken, I think 
your conclusion is correct.
    Chairman Issa. Okay. So as we try to look at our guidance, 
if you will, for future legislation, including Mr. Guinta's, 
what I see here is, fingers in the dike are good if there's 
only a few holes. In this case, it looks a little bit like the 
thing I get my spaghetti dried with; that if these cities 
comply fully at 8 percent, then 5, then 3, you may still have 
an estuary that's not able to support what the people in this 
community and the surrounding 40-some communities want.
    Mr. Spalding. That's right. And I'd add to your concern. If 
population keeps growing as it has been, this action would 
perhaps have less effect.
    Chairman Issa. So as we're looking at guidance to ourselves 
and, quite frankly, Senator Shaheen, all of the elected 
officials that go to Washington, possible guidance to the State 
for their share, you said that, if you will, these are the 
folks that are under--and I don't want to say your thumb in an 
unfair way, but they're under your jurisdiction. The others are 
effectively not. And would it be fair to say that we need to 
look to New Hampshire's legislature and ask, and to other 
communities, ``What are you going to do to help us with the 
other 70 percent?''
    Mr. Spalding. Absolutely. Absolutely.
    Chairman Issa. Well, let me ask you a rhetorical question.
    If all of 100 percent suddenly went to 8--in other words, 
all the--you know, we all know that septics sometimes leak 
conveniently, and no one addresses them because they're not 
giving them a problem, but they're flowing right into the 
water.
    Mr. Spalding. Exactly.
    Chairman Issa. If all of that was cleaned up, you might, in 
fact, have a very healthy estuary at 8 or 10, because you're, 
of course, now dealing with 100 percent of the problem, not 
just 30. Is that true?
    Mr. Spalding. You might well--I think there has been a 
conversation about further study. I would presume that would be 
a good thing to do to sort that out.
    Chairman Issa. Okay. Because part of what we were hoping to 
do, and Mr. Guinta as somebody who has served here as a city 
mayor and obviously knows the state, you know, we're looking at 
providing guidance both ways: guidance to ourselves in our 
federal role, but also to the state.
    And you mentioned the cycles. Let me ask just one last 
question, or last type of question.
    Mr. Hall, and to a certain extent Mr. Rice, but Mr. Hall 
particularly, he basically said that your process bypassed an 
awful lot of requirements of notice and hearings and so on. If 
that's the case, are you concerned that no matter what number 
you reach, if you reach a number that one side or the other 
doesn't have, that it's not defensible under federal law? In 
other words, you're going to end up in a suit either way?
    Mr. Spalding. He was talking about two processes: the 
process to establish a state water quality standard and our 
process to establish a permit on the 3, on communities we've 
issued draft permits for. These are distinct. Most of his 
criticism was at the state water quality standard process.
    We feel we followed the procedures to the letter for 
putting forth these permits. We looked at the narrative water 
quality standard. Not the numeric, the narrative. We looked at 
the preponderance of evidence and came forth with a judgment.
    Am I concerned? I'm always concerned when someone raises 
those issues. I think there's ways to arbitrate those issues. 
He's written a letter to my program, the water program, of 
course, the Inspector General, who we pay very close attention 
to EPA. I think----
    Chairman Issa. Our committee does, too. There are fingers 
and tentacles.
    Mr. Spalding. We stay very--as I said, pay very close 
attention.
    So those will be, I think, fairly considered about this 
issue of state water quality standard-setting. But on the 
permit, which is what I'm responsible for, I think we're in a 
process where public comment is being sought, and then we're 
going to have to look at it all and issue a response to all 
these comments, and we need to be accountable for the comments 
we give forth and make a judgment. But, again, I have not 
waited for that. We've been in conversation with community on 
how to stretch this out to protect their financial health, and 
we want to continue doing that.
    At the end of the day, you made the great point. This has 
to be a whole watershed approach. These permits are just one 
piece. If that whole watershed approach comes into place, 
clearly these permits can be looked at again, 5 years, 10 years 
down the line.
    Chairman Issa. Let me ask you one final question. Do you 
have the authority to work with a schedule that is somewhat 
closer to what each of these individuals, particularly the 
mayor, talked about?
    In other words, they put out bonds for 20 years. They want 
to amortize all or part of a facility for at least 10 before 
they tear it down and do it again, recognizing the 1997 
facility could potentially become abandoned----
    Mr. Spalding. Yeah. Absolutely.
    Chairman Issa. Unless they're able to use it as a base for 
upgrade.
    Do you have the authority to work with schedules that would 
be 10 years before the next step, 5 years before the next step, 
and so on?
    Mr. Spalding. We do. We have schedules like that underway. 
The most difficult issue, as you can appreciate, coming from 
the Midwest--combined sewer problems. Very challenging. We 
spread those out. We need to make incremental progress.
    I think what we're trying to say right now is we have to do 
something in the short term, or move forward on Great Bay. And 
that's what we're trying to do.
    Chairman Issa. Well, thank you.
    Mr. Guinta, do you have anything else?
    Mr. Guinta. If I could have one final comment to that end.
    Chairman Issa. Of course.
    Mr. Guinta. I just want to reiterate for the record that 
Senator Shaheen, Senator Ayotte, Governor Lynch, and myself 
have all submitted letters essentially saying the same thing: 
that we want to support the communities; we hear their 
concerns; we hear the EPA's concerns. I hear, and we've all 
heard the other groups', regional local groups' concerns. But 
the four elected people that I mentioned have all asked for and 
recommended additional time. And my hope would be that the AMP 
is something that is looked at with great optimism and 
opportunity to find that common ground.
    There are other communities that are affected, who I think 
support the AMP as well. And if there is some opportunity to 
try to find a way to get to the AMP without the implicit 
mandate, that at some point, without empirical data, getting to 
that 3, I mean, give them some time to try to assess.
    Mr. Spalding. Yeah.
    Mr. Guinta. If they do the 8, you know, what that would 
accomplish.
    Mr. Spalding. Right. We will look at ways to do that. I 
appreciate the input. Honestly, the input has led us to connect 
with Portsmouth, and we've discussed actually a final permit 
there at a--well, a draft, but a draft permit there at the 8-
milligram-per-liter level, because they are in a different 
situation.
    I want to make sure everyone understands. Every facility is 
different----
    Mr. Guinta. Oh, yeah, they are.
    Mr. Spalding. In the context of this.
    So we're trying hard to be as flexible as we can. So I 
will--we will look at that very closely.
    Mr. Guinta. And I think there's bipartisan support amongst 
the delegation and the governor, you know, for that. And I 
think everyone is trying to balance that----
    Mr. Spalding. I hear that.
    Mr. Guinta.--the mitigation needs, as the community does 
support, but also the costs approach as well.
    Mr. Spalding. Right. I hear that.
    Mr. Guinta. So I appreciate that consideration.
    Mr. Spalding. Thank you.
    Chairman Issa. Thank you.
    Thank you, Mr. Guinta. I appreciate your bringing this to 
our attention and bringing us up here. I want to note that the 
food, the accommodations were excellent. The weather, so-so.
    Mr. Spalding. Not so good today.
    Well, thank you for visiting the region. I appreciate it.
    Chairman Issa. Well, that's what field hearings are for. If 
we stay in Washington and ask you to come, we get one 
selection. For all the men and women who came here, hopefully 
this was an opportunity for you to see what you would otherwise 
not necessarily have been able to see in Washington.
    So I want to thank you for your patience and for your 
participation. We stand adjourned.
    [Whereupon, at 11:02 a.m., the committee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T5303.025
    
    [GRAPHIC] [TIFF OMITTED] T5303.026
    
    [GRAPHIC] [TIFF OMITTED] T5303.027
    
    [GRAPHIC] [TIFF OMITTED] T5303.028
    
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
